 Office of Inspector General
      Audit Report


 REFINEMENTS TO DOT’S MANAGEMENT OF
  THE HIGHWAY TRUST FUND’S SOLVENCY
COULD IMPROVE THE UNDERSTANDING AND
 ACCURACY OF SHORTFALL PROJECTIONS

        Department of Transportation

        Report Number: CR-2012-071
         Date Issued: March 6, 2012
                                                                                                                          1




           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Refinements to DOT’s Management of                                     Date:    March 6, 2012
           the Highway Trust Fund’s Solvency Could
           Improve the Understanding and Accuracy of
           Shortfall Projections
           Office of the Secretary of Transportation
           Federal Highway Administration
           Federal Transit Administration
           Report No. CR-2012-071

  From:    Mitch Behm                                                                  Reply to
                                                                                       Attn. of:   JA-50
           Assistant Inspector General
            for Rail, Maritime and Economic Analysis

    To:    Assistant Secretary for Budget and Programs and Chief Financial Officer
           Chief Financial Officer, Federal Highway Administration
           Associate Administrator for Budget and Policy, Federal Transit Administration


           In recent years, the Highway Trust Fund (HTF), comprised of the Federal
           Highway Administration’s (FHWA) Highway Account (HA) and the Federal
           Transit Administration’s (FTA) Mass Transit Account (MTA), has confronted
           solvency concerns as its outlays have significantly outpaced its excise tax receipts.
           An insolvency event in HTF could have severe consequences across the economy,
           possibly causing States to suspend billions of dollars in highway projects and
           transit agencies to suspend public transportation services. At the end of fiscal
           years 2008 and 2009, HA faced possible shortfalls, 1 and Congress transferred
           $8 billion and $7 billion, respectively, from the General Fund. In fiscal year 2010,
           Congress made another General Fund transfer to HA of $14.7 billion and
           $4.8 billion to MTA. As a result of these infusions, HA and MTA avoided the
           shortfalls that both were projected to experience by early fiscal year 2011. While
           DOT is responsible for the management of HA and MTA’s balances, it does not
           control the amount and timing of revenues and outlays.


           1
               A cash shortfall occurs when HA’s balance falls below a predetermined threshold. If the balance crosses the
               threshold, FHWA implements cash management procedures that reduce outlays with the prolonging, proration and,
               ultimately, suspension of payments to States.
                                                                                                                       2


HTF ended fiscal year 2010 with a balance of $29.2 billion—its largest since fiscal
year 2001—suggesting that the Fund’s financial condition is stable. However, this
balance results primarily from Congress’s General Fund cash infusions and a
decline in outlays due in part to the roughly $36 billion that the American
Recovery and Reinvestment Act of 2009 (ARRA) provided to States for highway
infrastructure and mass transit projects. Once States expend their ARRA funds,
DOT projections suggest that HTF’s outlays are expected to return to higher
levels. Furthermore, recent data indicate that the Fund’s expenditures exceed its
excise tax receipts and that this condition will continue for the foreseeable future.

The former Ranking Member of the Senate Budget Committee requested that we
identify and assess (1) the procedures that FHWA and FTA use to monitor HA and
MTA’s balances and identify and manage possible shortfalls in those accounts,
and (2) DOT’s methods of communicating with Congress and recipients regarding
possible shortfalls in HA and MTA. The requester also asked us to review the
Federal Aviation Administration’s (FAA) Airways and Airport Trust Fund
(AATF) because it is similar to HTF but has not experienced similar solvency
problems. Accordingly, we reviewed the practices that FAA uses to manage
AATF to assess whether they would be useful to FHWA and FTA.

To conduct our work, we interviewed officials from FHWA, FTA, Office of
Secretary of Transportation (OST), FAA, and key industry groups. We also
surveyed or visited several State departments of transportation and transit
authorities. We conducted this performance audit from May 2010 through January
2012 in accordance with generally accepted Government auditing standards. The
attachment to this report contains a detailed briefing of our results, which are
summarized below.

SUMMARY
As a result of HA’s 2008 shortfall, both FHWA and FTA (the OAs) instituted cash
tracking procedures to forecast shortfalls, and FHWA instituted additional
procedures to adjust when necessary the amount and timing of HA’s outlays to
States. While these forecasts are accurate over the long term, they do not account
for revenue variances and short-term outlay deviations, which makes it difficult to
predict the specific date on which a shortfall will occur. The OAs use a weekly
cash analysis tool to monitor HA and MTA’s balances and estimate the
magnitudes and timing of possible cash shortfalls. This tool uses revenue
projections from the Department of the Treasury (Treasury) and OAs’ historical
spending patterns (outlay rate tables) 2 to project outlays and determine when the
accounts may experience shortfall. While this tool has merit, we identified three

2
    Outlay rate tables use historical spending patterns to capture the rates at which States and transit agencies execute
    projects and submit related reimbursement requests. FHWA uses a 9-year rate table to project HA's outlays, while
    FTA uses a 6-year rate table to project MTA’s outlays.
                                                                                                                  3


areas of concern regarding the accuracy of its estimates. First, the accounts’
revenue and outlay projections are established by the President’s annual budget.
Therefore, outside of the mid-session review, which is conducted once each year,
FHWA and FTA do not revise their projections to account for revenue and outlay
variances. Second, while the long-term outlay projections derived from historical
outlay data are reasonable, the tool does not allow the OAs to identify short-term
deviations in outlay trends. 3 Finally, for MTA, it is particularly difficult to
determine accurate short-term outlay estimates because FTA uses a single 6-year
rate table to project outlays for the 16 diverse programs funded through MTA.
Since funds for some of these programs are spent very quickly (within 12 to 15
months) while others are spent more slowly (over 10 years or more), the 6-year
outlay projection used may not be as precise as it could be. Once a shortfall
appears imminent, FHWA invokes procedures, such as payment delays and
proration, to reduce HA’s cash burn rate. FTA, however, has no stated procedures
to reduce MTA’s cash burn rate in the event of a foreseeable cash shortfall. While
it has not yet faced a shortfall, FTA’s projections suggest that MTA would have
experienced one by early fiscal year 2011 without the General Fund infusion in
fiscal year 2010. FTA has indicated that it will adopt management procedures
similar to those used by FHWA in the event of a foreseeable shortfall. For further
details, please see slides 11 through 22 of the attachment.

While DOT communicates regularly with Congress regarding HA and MTA’s
balances and possible shortfalls, it does not inform recipients of its management
procedures─information that would provide context for the accounts’ balances.
OST briefs Congress biannually on HA and MTA’s balances and outlooks,
concurrent with the President’s annual budget release and the Administration’s
subsequent mid-session review. OST also provides weekly updates to
congressional staff through briefings and emails. To inform recipients and other
stakeholders of HTF’s status, FHWA posts HA and MTA’s balance data on the
FHWA Website every month. However, the Website does not include FHWA’s
cash management procedures or the minimum balance levels that would trigger
use of those procedures—context that could help recipients evaluate HA’s
financial position and determine the likelihood and timing of shortfalls. Since FTA
has not yet confronted an MTA shortfall, it has not developed procedures to
communicate possible shortfalls to recipients. Rather, FTA relies on FHWA to
post the MTA balance information on the FHWA Website along with the HA
postings. For further details, please see slides 23 through 28 of the attachment.

FAA’s AATF has certain fail-safe funding mechanisms that are unavailable to
HTF. However, FAA employs some practices for tracking of AATF’s outlays

3
    For example, over the last 10 years, HA’s annual outlays have been, on average, 2 percent higher than projected.
    MTA’s annual outlays for the 6 year period since SAFETEA-LU’s enactment (fiscal years 2005 through 2010) were,
    on average, 4 percent lower than projected. Over that same period, HA’s annual outlay variances have ranged
    between -10 percent and 18 percent, and MTA’s annual variances have ranged between -27 percent and 19 percent.
                                                                                   4


which, if adopted by HTF’s managers, could improve the accuracy of HTF’s
short-term outlay estimates. For example, to project outlays, FAA uses multiple
rate tables that align with different expense categories and allow for more precise
outlay estimates. FAA also closely tracks outlay trends on a project-level basis.
This project-level approach to tracking outlays would benefit both FHWA and
FTA because it would allow them to validate the spend-out rates they use to
generate their outlay projections. For further details, please see slides 29 through
31 of the attachment.

CONCLUSION
Each year, HTF provides a significant percentage of the funding for highway and
transit projects. Consequently, an HTF insolvency event could result in severe
consequences across the economy, including suspension of billions of dollars in
State highway projects and scaling back or suspension of public transportation
services. While the OAs’ projections of the magnitudes and timing of shortfalls
are reasonable, improvements to their projection methodology could enhance the
accuracy of their shortfall estimates and enable them to implement, at the earliest
possible date, shortfall management and communication procedures. HTF does not
currently face a solvency concern. However, because it receives less in excise tax
receipts than it expends, eventually the Fund will again be threatened by shortfalls,
and Congress and recipients will need reliable and timely information on its
Fund’s status.

RECOMMENDATIONS
We recommend that FHWA:
1. Provide in its weekly report to Congress a range of time, rather than a specific
   date, when a shortfall is projected to occur to better reflect possible variances
   in a shortfall’s timing.

2. Conduct a periodic assessment of the outlays associated with a representative
   sample of projects to identify deviations in outlay trends and adjust shortfall
   projections accordingly.

3. Publicize on its Website its cash management procedures and the events that
   trigger its use of these procedures to allow stakeholders to better evaluate HA’s
   financial position.

We recommend that FTA:
4. Provide in its weekly report to Congress a range of time, rather than a specific
   date, when a shortfall is projected to occur to better reflect possible variances
   in a shortfall’s timing.
                                                                                  5


5. Conduct a periodic assessment of the outlays associated with a representative
   sample of projects to identify deviations in outlay trends and adjust shortfall
   projections accordingly.

6. Develop procedures to manage MTA’s cash balance to exercise more control
   over MTA’s cash flows when a shortfall appears imminent. Publicize on its
   Website MTA’s cash balance and management procedures and the events that
   trigger its use of these procedures.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided DOT a copy of our draft report on January 11, 2012, and received its
response—included in its entirety as an Appendix to this report—on
February 21, 2012. FHWA concurred with Recommendation 1 and partially
concurred with Recommendations 2 and 3. Similarly, FTA concurred with
Recommendation 4 and partially concurred with Recommendations 5 and 6.

For Recommendations 1 and 4, we consider FHWA and FTA’s proposed actions
to be sufficient, and therefore, consider these recommendations resolved but open
pending completion of the planned actions.

For Recommendations 2 and 5, both FHWA and FTA acknowledge the need to
periodically validate their respective outlay rate assumptions, however, they
believe the methodology we recommended may not be the most resource efficient
way of conducting such an evaluation. Consequently, both OAs have requested
flexibility to explore more efficient alternative methodologies for validating their
outlay rate assumptions, prior to selecting a methodology of choice. We are open
to alternative methodologies so long as they address the concerns highlighted in
our recommendation. FHWA and FTA have provided a target action date for
conducting this evaluation and selecting a methodology. However, they have not
provided a target action date for conducting the periodic assessments themselves.
Accordingly, we are requesting that FHWA and FTA provide us with those target
action dates.

For Recommendations 3 and 6, FHWA and FTA concurred with the need to
provide additional information on their websites relating to cash management
procedures the OA’s might invoke in the event of a shortfall. However, they are
hesitant to reveal specific procedures and when the procedures will be
implemented, since DOT leadership has the discretion to modify its cash
management procedures in response to the events that may trigger their use.
Furthermore, FTA has agreed to develop basic internal procedures for the
management of shortfalls in MTA. We consider FHWA and FTA’s proposed
                                                                                6


actions to be sufficient, and therefore, consider these recommendations resolved
but open pending completion of the planned actions.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request that FHWA and FTA provide information and documentation
demonstrating actions that they plan on taking to implement the methodology
selected to address Recommendations 2 and 5 respectively. We request that
FHWA and FTA provide this additional documentation and response within 30
days. We appreciate the courtesies and cooperation of OST, FHWA, FTA and
FAA’s representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-1995, or Yana Hudson, Program Director, at
(202) 366-2985.

                                        #

Attachment

cc: Lana Hurdle, OST, B-2
    Laura Ziff, OST, B-10
    Audit Liaison, OST, M-1
    Audit Liaison, FHWA, HAIM-10
    Audit Liaison, FTA, TBP-02
    Audit Liaison, FAA, ABU-100
                                                                                                          7


           APPENDIX. AGENCY COMMENTS


                                                                 Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation


Subject:
           ACTION: Management Response to OIG Draft Report on                Date:    February 21, 2012
           Management of the Highway Trust Fund



           Chris Bertram                                                 Reply to
  From:
                                                                          Attn. of:
           Assistant Secretary for Budget and Programs
            And Chief Financial Officer
    To:    Calvin L. Scovel
           Inspector General

           The Highway Trust Fund (HTF) serves an essential role in funding maintenance and
           improvements to the nation’s surface transportation infrastructure. The Department works
           closely with the Federal Highway Administration (FHWA) and the Federal Transit
           Administration (FTA) to closely monitor the status of the Fund, the receipts coming into the
           Trust Fund, and the expenditures from the Trust fund to ensure prudent financial
           management. Over the last several years, revenues into the highway trust fund have
           declined, which when combined with the spending rates enumerated in the prior
           authorization, led to some well known imbalances and potential shortfalls.

           During these events, the Department enhanced communication with Congress, and developed
           what is now a routine communication with applicable Congressional Committees. The
           Department’s close monitoring of HTF balances continues to provide both the Department
           and Congress with useful information regarding the status of the trust fund. The Department
           is ready to take proactive steps to manage the cash flow should the balance of the Highway
           Account fall below what we believe to be a prudent balance. Under these procedures we
           would continue to obligate funds for surface transportation programs, but payment of some
           bills may be delayed. As past short-falls have affected only the Highway Account, FHWA
           has well- established procedures for handling these situations. In the event that future
           shortfalls may affect the somewhat different operations of the Transit Account, FTA is now
           reviewing best practices, and will prepare similar contingent procedures and processes.

           We remain hopeful that Congress, in its ongoing work on surface transportation
           authorization, incorporates new approaches to stabilizing the trust fund with long term
           funding solutions combined with sustainable funding flows. Such actions could obviate the
           need for the cash management processes and actions that are the focus of this report.


           Appendix. Agency Comments
                                                                                                 8



RECOMMENDATIONS AND RESPONSE

OIG Recommendations to FHWA

Recommendation 1: Provide in its weekly report to Congress a range of time, rather than a
specific date, when a shortfall is projected to occur to better reflect possible variances in a
shortfall’s timing.

FHWA Response: Concur. The analysis used for these reports was originally conceived as
an internal tracking and decision tool within the Department. As such it was understood that
there was no intention to imply a level of precision to a specific week. In fact, the color
coding used in the table is intended to convey a sense of the range of estimates. Inasmuch as
this internal tool is now used outside the Department, FHWA and FTA will work together to
ensure that the table clearly conveys a sense of the level of specificity with regard to the
range of uncertainty for dates. FHWA anticipates completing this action by July 1, 2012.

Recommendation 2: Conduct a periodic assessment of the outlays associated with a
representative sample of projects to identify deviations in outlay trends and adjust shortfall
projections accordingly.

FHWA Response: Concur in part. FHWA tracks and analyzes actual outlays compared to
historical trends on a monthly basis and is able to determine monthly variation from
projected amounts. The current methodology of estimating outlays from the Federal-aid
highway program has historically been very accurate and within approximately 2 percent of
the estimates, although we recognize FY 2010 was an exception due to unique
circumstances. Variance for FY 2011 was .01 percent. FHWA recognizes the need to
periodically validate outlay rate assumptions and make appropriate adjustments, if necessary,
in its model. However, it is not clear that the suggested method for completing such
assessment offers the most resource efficient method of achieving the intended result. By
December 31, 2012, FHWA will evaluate the potential methodologies available for assessing
outlay rates, and determining the effect on the HTF model, and identify a method for
accomplishing periodic assessment.

Recommendation 3: Publicize on its Website its cash management procedures and the
events that trigger its use of these procedures to allow stakeholders to better evaluate HA’s
financial position.

FHWA Response: Concur in part. FHWA will provide general information on its website
by July 1, 2012 relating to the potential for cash management procedures, and events that
may trigger their use. This information can provide general discussion of the types of
circumstances that might give rise to the use of cash management procedures but cannot
specify procedures that may be implemented under any particular circumstances. Specific
procedures will depend on a multitude of factors surrounding the situation and must leave
room for the application of appropriate discretion by departmental leadership.



Appendix. Agency Comments
                                                                                                 9


OIG Recommendations to FTA

Recommendation 4: Provide in its weekly report to Congress a range of time, rather than a
specific date, when a shortfall is projected to occur to better reflect possible variances in a
shortfall’s timing.

FTA Response: Concur. FTA will work with FHWA to modify the table as appropriate to
convey a range of dates when a shortfall may occur. FTA anticipates completing this action
by July 1, 2012.

Recommendation 5: Conduct a periodic assessment of the outlays associated with a
representative sample of projects to identify deviations in outlay trends and adjust shortfall
projections accordingly.

FTA Response: Concur in part. FTA recognizes the value of validating its current outlay
modeling even though outlay projections have been accurate. FTA will determine the most
effective and practical approach for accomplishing this objective by December 31, 2012.

Recommendation 6: Develop procedures to manage MTA’s cash balance to exercise more
control over MTA’s cash flows when a shortfall appears imminent. Publicize on its Website
MTA’s cash balance and management procedures and the events that trigger its use of these
procedures.

FTA Response: Concur in part. FTA will develop basic internal procedures to manage a
shortfall in the MTA. It anticipates completing these procedures by December 31, 2012. In
addition, FTA will add a link, by July 1, 2012, from its website to the FHWA website which
currently reports the transit account’s cash balance. FTA, like FHWA, will provide general
information on its website relating to the potential for cash management procedures by July
1, 2012. Specific procedures will depend on a multitude of factors surrounding the situation
and must leave room for the application of appropriate discretion by departmental leadership.




Appendix. Agency Comments
Attachment. Senate Budget Committee Briefing




                                               AUDIT OF HIGHWAY TRUST FUND’S
                                                    SOLVENCY CONCERNS


                                                     BRIEFING TO SENATE BUDGET
                                                        COMMITTEE-MINORITY

                                                 U.S. DEPARTMENT OF TRANSPORTATION
                                                     OFFICE OF INSPECTOR GENERAL

                                                           January 19, 2011




                                                                                     Page 1 of 33
                                                                                     Attachment
                                                                                               Table of Contents
Attachment. Senate Budget Committee Briefing




                                                                                                                       2
                                                  Highway Trust Fund (HTF) Overview…..………………………….…………………..…...                                                         Slide 4
                                                  Historical Perspective on HTF’s Solvency……….…………………………..……………..                                                      Slide 5
                                                  Audit Objectives and Methodology.……………………..…………..………………..……..                                                        Slides 6 − 7
                                                  Current View of HTF’s Solvency….…………..….…….…………………………………...…                                                         Slide 8
                                                  Future View of HTF’s Solvency….………………………………………………………………                                                              Slide 9
                                                  Key Observations……………………………………………………………………………………..                                                                   Slide 10
                                                  Objective 1: Monitoring Balances and Estimating Shortfalls….…………………….                                                Slides 11 − 22
                                                      Weekly Cash Analysis Tool……………………………..…..……………………………………………………….                                                  Slide 12
                                                      HTF’s Revenue Process…………………………………….…….……………………………..…………………….                                                    Slide 13
                                                      HTF’s Revenue Estimation Process…………….………..…………………………………..…………………..                                              Slide 14
                                                      Impact of HA’s Revenue Variances……………………………………….……………………………..………..                                               Slide 15
                                                      HA’s Outlay Process…………………………………………………………………………………….………………                                                       Slide 16
                                                      Basis for HA’s Outlay Estimates……………………………………………………….………….……………….                                                Slide 17
                                                      Impact of HA’s Outlay Estimates…………………………………..…..………………………………………….                                               Slide 18
                                                      Collective Impact of Variances…………………………………………………………………….………………..                                                Slide 19
                                                      MTA’s Outlay Estimates…………………………….............................................................................   Slide 20




                                                                                                                                                                                         Page 2 of 33
                                                                                                                                                                                         Attachment
                                                      FHWA’s Cash Management Procedures………………………………….….…………………….................                                       Slide 21
                                                      FTA Lacks Cash Management Procedures……….…………………………………………………………..…                                                Slide 22
                                                                          Table of Contents (cont’d.)
Attachment. Senate Budget Committee Briefing




                                                                                                    3

                                                  Objective 2: DOT’s Communications with Congress and Recipients…..…….…... Slides 23 − 28
                                                      DOT’s Communications with Congress…………………………………………………………………………..               Slide 23
                                                      FHWA’s Communications with Recipients and Stakeholders……………………………………..….…      Slide 24
                                                      Information Available on FHWA’s Website….………………………………….……………………..………           Slide 25 - 26
                                                      FTA’s Communications with Recipients and Stakeholders……………………………………....……...   Slide 27
                                                      Recipients’ Perspectives on DOT’s Communications……………………………………………………….         Slide 28
                                                  Objective 3: AATF Best Practices……………………………………………………...……... Slides 29 – 31
                                                      AATF Background…………….…………………………………………..…………………………………………..…                     Slide 29
                                                      Short-Term Outlook for AATF’s Solvency……………………….……………………………………………...           Slide 30
                                                      Key Takeaways from FAA’s Management of AATF….....…………………………………………………...        Slide 31
                                                  Proposed Corrective Actions…………………………………………………………….……….. Slide 32
                                                  Major Contributors to the Briefing….………………………………………………….……… Slide 33




                                                                                                                                                      Page 3 of 33
                                                                                                                                                      Attachment
                                                           Highway Trust Fund (HTF) Overview
Attachment. Senate Budget Committee Briefing




                                                                                        4

                                               ● HTF consists of the Highway Account (HA) administered by the Federal Highway
                                                 Administration (FHWA) and the Mass Transit Account (MTA) administered by the
                                                 Federal Transit Administration (FTA).
                                               ● HTF is funded through excise taxes on motor fuels (roughly 88%) and taxes on
                                                 truck and tire sales (roughly 8%).




                                                                                                                                Page 4 of 33
                                                                                                                                Attachment
                                                              Historical Perspective on HTF’s Solvency
Attachment. Senate Budget Committee Briefing




                                                                                                        5
                                                           Figure 1. HTF’s Historical Cash Balance in (FY 1995 through FY 2010)




                                                          Source: OIG analysis of HTF data.

                                               ●   HTF’s cash balance increased steadily though the late 1990s—peaking at $31 billion at the end of FY 2000.
                                               ●   Beginning with Transportation Equity Act-21’s (TEA-21) enactment in FY 1998 and continuing with Safe,
                                                   Accountable, Flexible, Efficient Transportation Equity Act-A Legacy for Users (SAFETEA-LU) enactment in FY
                                                   2005, outlays outpaced receipts, resulting in a decrease in HTF’s cash balance.




                                                                                                                                                                Page 5 of 33
                                                                                                                                                                Attachment
                                               ●   An unforeseen decline in vehicle-miles traveled in FY 2007—due to high fuel prices and a lagging economy—
                                                   accelerated the decline in HTF’s balance and led to HA’s ongoing solvency concerns.
                                               ● Since FY 2008, HTF has received a total of $34.5 billion in General Fund transfers to maintain its solvency.
                                                                              Audit Objectives
Attachment. Senate Budget Committee Briefing




                                                                                            6

                                               ● The former Ranking Member of the Senate Budget Committee requested that the
                                                 DOT Office of Inspector General (OIG) identify and assess:
                                                  1) The procedures that FHWA and FTA use to monitor HA and MTA’s balances and identify
                                                     and manage possible shortfalls in the accounts and
                                                  2) DOT’s methods of communication with Congress and recipients regarding possible
                                                     shortfalls in HA and MTA.
                                                The requester also asked that we review the Federal Aviation Administration’s
                                                 (FAA) Airways and Airport Trust Fund (AATF)—because it is similar to HTF but has
                                                 not experienced similar solvency problems—and assess whether the FAA has any
                                                 practices that would be useful to FHWA and FTA.
                                               ● We conducted this performance audit from May 2010 through January 2012 in
                                                 accordance with generally accepted Government auditing standards. Those
                                                 standards require that we plan and perform the audit to obtain sufficient,
                                                 appropriate evidence to provide a reasonable basis for our findings and conclusions




                                                                                                                                          Page 6 of 33
                                                                                                                                          Attachment
                                                 based on our audit objectives. We believe that the evidence obtained provides a
                                                 reasonable basis for our findings and conclusions based on our audit objectives.
                                                                                           Audit Methodology
Attachment. Senate Budget Committee Briefing




                                                                                                          7

                                               ● To conduct our audit work:
                                                   ●   We interviewed officials from FHWA, FTA, the Office of the Secretary of Transportation
                                                       (OST), FAA, the American Association of State Highway and Transportation Officials
                                                       (AASHTO), the American Public Transportation Association (APTA), and the Association for
                                                       General Contractors (AGC).
                                                   ●   We surveyed a judgmental sample of nine states and nine transit agencies (TA), and visited
                                                       two states and three TAs:
                                                        ●   States : California,* Texas,* Florida, New York, Illinois, Ohio, North Carolina, New Jersey and Oklahoma.
                                                        ●   TAs: South Eastern Pennsylvania Transportation Authority,* Los Angeles County Metro Transit
                                                            Authority,* Rochester-Genesee Regional Transit Authority, Spokane Transit Authority, Cedar Rapids
                                                            Transit, City of Bozeman, Erie Metro Transit Authority, State of Arizona and New Jersey Transit.*
                                                   ●   We obtained FHWA’s projections related to HA’s FY 2009 cash shortfall projections and
                                                       assessed the impact of revenue and outlay variances on the accuracy of these projections.




                                                                                                                                                                        Page 7 of 33
                                                                                                                                                                        Attachment
                                               * Conducted site visits with these States and TAs.
                                                                          Current View of HTF’s Solvency
Attachment. Senate Budget Committee Briefing




                                                                                                                 8

                                                The short-term solvency outlook for HTF is stable due to:
                                                      General Fund infusions in HA of $8 billion and $7 billion respectively at the end of FY 2008
                                                       and 2009. Furthermore, HA and MTA received $14.7 billion and $4.8 billion respectively
                                                       during FY 2010 to avoid possible shortfalls1 in those accounts;
                                                      $36 billion in incremental funding provided by the American Recovery and Reinvestment
                                                       Act (ARRA) of 2009 in support of various highway infrastructure and mass transit projects
                                                       that led states to reduce HA outlays during FYs 2009 through 2011; and
                                                      A lack of a long-term reauthorization, which has depressed MTA outlays as TAs have
                                                       hesitated to pursue new capital projects given uncertain funding levels.




                                                                                                                                                                                       Page 8 of 33
                                                                                                                                                                                       Attachment
                                               1
                                                   A cash shortfall or insolvency occurs when HA or MTA’s balance dips below the predetermined threshold, requiring FHWA or FTA
                                                   (also referred to as the OAs) to implement cash management procedures that reduce outlays by prolonging, prorating and ultimately
                                                   suspending reimbursements.
                                                                    Future View of HTF’s Solvency
Attachment. Senate Budget Committee Briefing




                                                                                                9

                                               ● Without congressional intervention to increase receipts or reduce outlays, HTF will
                                                 eventually face solvency challenges again because:
                                                 ●   HTF outlays are expected to rebound to earlier higher levels once ARRA funding is expended;
                                                 ●   HTF outlays continue to exceed excise tax receipts; and
                                                 ●   Once a new surface transportation reauthorization is enacted, states and TAs will likely
                                                     increase their spending levels, thus expanding the difference between HTF outlays and
                                                     receipts.
                                               ● An insolvency event in HTF could have severe consequences across the economy,
                                                 possibly causing states to suspend billions of dollars in highway projects and TAs to
                                                 scale back or suspend public transportation services.




                                                                                                                                                   Page 9 of 33
                                                                                                                                                   Attachment
                                                                                  Key Observations
Attachment. Senate Budget Committee Briefing




                                                                                                  10

                                               ● As a result of HA’s 2008 shortfall, both FHWA and FTA instituted cash tracking
                                                 procedures to better forecast HTF shortfalls
                                                 ●   OAs’ cash tracking procedures provide a reasonable basis for estimating shortfalls over the long-run;
                                                     but they do not accurately account for the accounts’ revenue and outlay variances in the short-term.

                                               ● Once a shortfall appears imminent, FHWA employs cash management procedures to
                                                 adjust the amount and timing of HA outlays to states. FTA, however, does not have any
                                                 procedures to reduce MTA’s cash burn rate in the event of a foreseeable cash shortfall.
                                               ● While DOT communicates regularly with Congress regarding HA and MTA’s balance and
                                                 possible shortfalls, it does not inform recipients of its cash management procedures which
                                                 would provide context for the accounts’ balances.
                                                 ●   OST provides weekly updates to Congress regarding the accounts’ balances and possible shortfalls.
                                                 ●   FHWA posts HA and MTA’s balances on its Website but does not include its cash management
                                                     procedures or when they are triggered, context that could help recipients evaluate HA’s status.
                                                 ●   FTA does not post MTA’s balance on its Website.




                                                                                                                                                             Page 10 of 33
                                                                                                                                                             Attachment
                                               ● FAA employs some practices for tracking AATF’s outlays which, if adopted by HTF’s
                                                 managers, could improve the accuracy of HTF’s outlays estimates.
                                               Objective 1: Monitoring Balances and Estimating Shortfalls
Attachment. Senate Budget Committee Briefing




                                                                                                        11

                                               ● OAs use a weekly cash analysis tool [See figure 2 on slide 12] to project HA and MTA’s
                                                 balances and estimate the magnitude and timing of possible cash shortfalls over a rolling
                                                 2-year period─the remainder of the current fiscal year as well as for the upcoming fiscal
                                                 year.
                                               ● The tool uses the Department of Treasury’s (Treasury) revenue projections and OAs’
                                                 outlay projections to estimate when the accounts’ balances may dip below their respective
                                                 minimum thresholds and trigger a cash shortfall.
                                               ● While the tool is updated weekly to reflect year-to-date data, the updates do not allow
                                                 revenue and outlay variances to be recognized in the end-of-year revenue and outlay
                                                 numbers.
                                                  ●   Accounts’ revenue and outlay projections are established by the President’s annual budget and are updated
                                                      only once each year as a part of the mid-session review.
                                                  ●   Outside of the mid-session review, FHWA and FTA do not revise their projections to account for revenue
                                                      and outlay variances.
                                                  ●   Revenue variances result from an increase or decrease in excise tax collections relative to what was




                                                                                                                                                                  Page 11 of 33
                                                                                                                                                                  Attachment
                                                      previously projected.
                                                  ●   Outlay variances result from states and TA’s control over magnitude and timing of reimbursement requests;
                                                      and external events such as ARRA, economic recession, etc.
                                                   Objective 1 (cont’d.): Weekly Cash Analysis Tool
Attachment. Senate Budget Committee Briefing




                                                                                                                    12
                                                                     Figure 2. Example of OAs’ Weekly Cash Analysis Tool
                                               Note: Inserted for
                                                  Illustrative
                                                   Purposes                                              +              -                =              HA’s actual year-
                                                                                                                                                        to-date balance
                                                                                                                                                          that reflects
                                               Projected revenues                                                                                       actual revenues
                                               adjusted to reflect                                                                                        and outlays
                                                 variances from
                                                   Treasury’s                                                                                           Projected outlays
                                                   projections                                                                                          adjusted to reflect
                                                                                                                                                         variances from
                                                  Revenue and                                                                                            OAs’ projections
                                               outlay projections
                                                 per President’s                                                                                         HA’s balance dips
                                                budget that can                                                                                          below $4 billion
                                                 only be revised
                                                once per year (at                                                                                       HA’s balance dips
                                                the mid-session                                                                                          below $1 billion




                                                                                                                                                                              Page 12 of 33
                                                                                                                                                                              Attachment
                                                    review).
                                                                                                                                                        HA’s ending cash
                                                                                                                                                            balance
                                                                        Source: Office of the Secretary of Transportation data with OIG explanations.
                                                         Objective 1 (cont’d.): HTF’s Revenue Process
Attachment. Senate Budget Committee Briefing




                                                                                                13
                                                                 Figure 3. Illustration of Revenue Collection and Estimation
                                                                 Process




                                                                                                                               Page 13 of 33
                                                                                                                               Attachment
                                               Source: OIG analysis.
                                                Objective 1 (cont’d.): HTF’s Revenue Estimation Process
Attachment. Senate Budget Committee Briefing




                                                                                               14

                                               ● Treasury estimates and allocates HTF’s excise tax receipts.
                                                 ●   Treasury projects HA’s and MTA’s cash receipts when it projects revenues for the U.S.
                                                     government as part of compiling the President's annual budget (President’s budget).

                                               ● Treasury uses a statutory formula to determine the semimonthly cash allocations to
                                                 HA and MTA.
                                               ● Roughly 5 months after the end of each quarter, Treasury increases or decreases
                                                 HA’s and MTA’s receipts after it confirms the amount of HTF excise taxes actually
                                                 collected. The resulting adjustments are referred to as positive or negative “true-
                                                 ups.”
                                                 ●   When true-ups occur, the OAs acknowledge these variances in their year-to-date actual data,
                                                     but they must increase or decrease the revenue projections for the remainder of the fiscal
                                                     year so as to match year end revenue projections set by the President’s budget.

                                               ● Thus, if a shortfall occurs before or immediately following the mid-session review,




                                                                                                                                                   Page 14 of 33
                                                                                                                                                   Attachment
                                                 these variances could influence the accuracy of the OAs’ estimates of the magnitude
                                                 and timing of possible shortfalls.
                                                 Objective 1 (cont’d.): Impact of Revenue Variances
Attachment. Senate Budget Committee Briefing




                                                                                                       15

                                                 Figure 4. Analysis of HA’s Revenue True-Ups (September 2007 through December
                                                                                      2009)




                                                                                                       Average
                                                                                                      Quarterly
                                                                                                      True-Up:
                                                                                                    -$386 million




                                                               Source: OIG analysis of FHWA data.

                                               ● Between September 2007 through December 2009, HA noted true-ups ranging from $50
                                                 million to -$1.2 billion.
                                                 ●   The average true-up for this period was -$386 million.




                                                                                                                                                    Page 15 of 33
                                                                                                                                                    Attachment
                                                 ●   The largest true-up was -$1.2 billion (-16.2% of revenues) with the second largest being   -
                                                     $783 million (-11.6% of revenues).
                                                 ●   The sole positive true-up was in the amount of $50 million (0.5% of revenues).
                                                                Objective 1 (cont’d.): HA’s Outlay Process
Attachment. Senate Budget Committee Briefing




                                                                                         16
                                                    Figure 5. Illustration of HA’s Outlay Estimation and Reimbursement Process




                                                                                                                                 Page 16 of 33
                                                                                                                                 Attachment
                                               Source: OIG analysis.
                                               Objective 1 (cont’d.): Basis for HA’s Outlay Estimates
Attachment. Senate Budget Committee Briefing




                                                                                                     17

                                               ● The outlay estimation process begins with Congress setting HA’s spending limit through
                                                 the annual appropriations process.
                                               ● Once HA’s annual appropriation is determined, FHWA uses historical spending patterns
                                                 called “Outlay Rate Tables” to project the rate at which states (or recipients) will execute
                                                 their HA funded projects and submit related reimbursement requests.
                                                 ●   FHWA uses only one outlay rate table to project HA’s outlays because HA administers one major
                                                     program−the Federal Aid Highway Program (FAHP) that accounts for roughly 99% of its outlays.
                                                 ●   FHWA’s outlay rate table assumes that roughly 84% of reimbursements on eligible projects occur over the
                                                     first 3 years, whereas only 16% of reimbursements occur over the final 6 years.

                                               ● Additionally, using a statutory formula, FHWA determines the obligation limits for each
                                                 state, thereby making those funds accessible to them to obligate to approved FAHP
                                                 projects of their choosing.




                                                                                                                                                               Page 17 of 33
                                                                                                                                                               Attachment
                                                    Objective 1 (cont’d.): Impact of HA’s Outlay Variances
Attachment. Senate Budget Committee Briefing




                                                                                                   18

                                                       Figure 6. Analysis of HA’s Outlay Variances (FY 2000 through FY 2010)




                                                                                                             Average
                                                                                                             Annual
                                                                                                            Variance:
                                                                                                           $813 million



                                                              Source: OIG analysis of FHWA data.

                                               ● HA’s outlay rate table provides a reasonable basis for projecting outlays over the long-term−HA
                                                 outlays have varied by only $813 million (2.2%) over the past 10 years.
                                               ● However, short-term outlay projections have not been as accurate−disregarding FY 2010




                                                                                                                                                   Page 18 of 33
                                                                                                                                                   Attachment
                                                 outlays (when outlays were $5.6 billion lower than projected due to ARRA funding)−over the
                                                 past 10 years outlays have varied between -$3.2 billion (-9.9%) for FY 2003 and $3.3 billion
                                                 (9.3%) for FY 2007.
                                                Objective 1 (cont’d.): Collective Impact of Variances
Attachment. Senate Budget Committee Briefing




                                                                                                  19
                                                    Figure 7. Impact of Revenue and Outlay Estimates on HA’s FY 2009 Shortfall
                                                                                    Projections




                                                      Source: OIG Analysis of FHWA Data

                                               ● A -1% variance in both revenues and outlays would have increased HA’s cash burn by $532 million,
                                                 causing the FY 2009 shortfall to occur 2 weeks earlier than projected. (See Scenario 1, Figure 7 above)




                                                                                                                                                           Page 19 of 33
                                                                                                                                                           Attachment
                                               ● Similarly a -4% variance would have increased HA’s cash burn by $2.1 billion, causing the shortfall to
                                                 occur 4 weeks earlier than projected. (See Scenario 2, Figure 7 above)
                                                      Objective 1 (cont’d.): MTA’s Outlay Estimates
Attachment. Senate Budget Committee Briefing




                                                                                                   20

                                               ● MTA funds 16 different programs but FTA uses one 6-year outlay rate table to
                                                 project MTA’s outlays, a practice that could affect the accuracy of those projections.
                                                 ●   Programs administered through MTA cover a wide range of expense categories ranging from
                                                     maintenance expenses, which typically occur over 12 to 15 months, to capital expenditures which can
                                                     occur over 5 to 6 years or longer.
                                                 ●   The 6-year rate table used to project MTA’s outlays attempts to estimate the rate at which recipients
                                                     submit reimbursement requests related to each of these expense categories.

                                               ● As noted with FHWA, FTA’s outlay rate table provided a reasonable basis for
                                                 projecting MTA’s outlays over the long-term (MTA’s outlays have varied by -4.1%
                                                 over the last 6 years).
                                               ● Short-term outlays have varied drastically (MTA outlays have varied between -
                                                 26.5% and 19.3% annually over the same period).
                                               ● Outlay variances can result from recipients’ control over magnitude and timing of




                                                                                                                                                             Page 20 of 33
                                                                                                                                                             Attachment
                                                 reimbursement requests; and external events such as the lack of a long-term
                                                 reauthorization, economic recession, etc.
                                                  Objective 1 (cont’d.): FHWA’s Cash Management Procedures
Attachment. Senate Budget Committee Briefing




                                                                                                             21
                                                  ● As the FY 2009 shortfall approached, FHWA invoked various cash management procedures
                                                      to reduce HA’s cash burn rate as outlined in Figure 8 below:
                                                                                      Figure 8. HA’s FY 2009 Cash Management Procedures


                                                                                                                   As cash approached $4 billion, FHWA moved
                                                                                                                   from daily to weekly reimbursements

                                                              FHWA projected that it would                         “Minimum Cash Balance”: $4 billion*
                                                                 take 8 weeks to go from the
                                                                                                                    Alerted Congress and recipients to the
                                                           $4 billion minimum cash balance
                                                                                                                    possibility of an imminent cash shortfall
                                                             to the $1 billion true minimum
                                                               cash balance during the peak
                                                               summer construction season.                          FHWA would have moved from weekly to
                                                                                                                    bi-weekly reimbursements if cash
                                                           As cash approached the minimum                           approached $1 billion
                                                                  levels needed for operating
                                                                purposes, FHWA considered                           “True Minimum Cash Balance”: $1 billion*
                                                                suspending reimbursements
                                                                                                                    If cash dipped below $1 billion, FHWA would




                                                                                                                                                                  Page 21 of 33
                                                                                                                                                                  Attachment
                                                                                                                    have considered prorating reimbursements

                                                 Source: OIG analysis of FHWA data.
                                               * Established by DOT but subject to change.
                                               Objective 1 (cont’d.): FTA Lacks Cash Management Procedures
Attachment. Senate Budget Committee Briefing




                                                                                              22

                                               ● Because MTA has not yet faced a cash shortfall, FTA has not established shortfall
                                                 management procedures.
                                                 ●   FTA has set MTA’s minimum cash balance at $1 billion but has no procedures for reducing
                                                     MTA’s cash burn as the balance approaches this threshold.
                                                 ●   FTA has indicated that it will adopt shortfall management procedures similar to those used
                                                     by FHWA in the event an MTA cash shortfall appears imminent.

                                               ● However, FTA’s projections suggest that MTA would have had a shortfall by early
                                                 FY 2011 if it had not received the $4.8 billion General Fund infusion in April 2010.




                                                                                                                                                  Page 22 of 33
                                                                                                                                                  Attachment
                                                Objective 2: DOT’s Communications with Congress
Attachment. Senate Budget Committee Briefing




                                                                                               23

                                               ● The Office of Secretary of Transportation (OST) is responsible for communicating
                                                 regularly with Congress regarding HA and MTA's status.
                                               ● OST uses two primary communication strategies to achieve this:
                                                 ●   OST briefs Congress on HTF’s balance and outlook at least twice per year−at the release of the
                                                     President’s budget and at the mid-session review.
                                                 ●   OST sends weekly emails to various congressional committees (including House
                                                     Appropriations and Senate Budget committees) containing HA and MTA balance updates
                                                     and projections of possible shortfalls for the current and upcoming fiscal year generated by
                                                     the weekly cash analysis tool.

                                               ● Any additional communications with Congress that may be deemed necessary are
                                                 made at the behest of the Secretary of Transportation and/or the White House.




                                                                                                                                                      Page 23 of 33
                                                                                                                                                      Attachment
                                               Objective 2 (cont’d.): FHWA’s Communications with Recipients and
Attachment. Senate Budget Committee Briefing


                                                                         Stakeholders
                                                                                              24

                                               ● FHWA employs two mechanisms to communicate with recipients and stakeholders:
                                                 ●   FHWA posts HA’s year-to-date and historical balance data on its Website and updates these
                                                     data monthly (See Figure 9 and 10 on the slides 25 and 26).
                                                 ●   FHWA provides a significant amount of information on its Website. However, the site does
                                                     not include FHWA’s cash management procedures or the minimum balance levels that would
                                                     trigger the use of those procedures.
                                                 ●   In 2009, FHWA notified states when cash dipped below the minimum cash threshold (set at
                                                     $4 billion), which FHWA estimated would provide recipients with as much as an 8-week
                                                     notice of an imminent shortfall to take the necessary remedial actions.




                                                                                                                                                 Page 24 of 33
                                                                                                                                                 Attachment
                                               Objective 2 (cont’d.): Information Available on FHWA’s Website
Attachment. Senate Budget Committee Briefing




                                                                                         25
                                                           Figure 9. HA Balance Data Available on FHWA’s Website

                                                                                www.fhwa.dot.gov/highwaytrustfund




                                                                                                                    `




                                                                                                                        Page 25 of 33
                                                                                                                        Attachment
                                                       Source: FHWA’s Website
                                                Objective 2 (cont’d.): Information Available on FHWA’s Website
Attachment. Senate Budget Committee Briefing


                                                                             (cont’d.)
                                                                                                    26
                                                            Figure 10. HA Balance Data Available on FHWA’s Website (cont’d.)

                                                                        www.fhwa.dot.gov/highwaytrustfund




                                                                                                                               `




                                                                                                                                   Page 26 of 33
                                                                                                                                   Attachment
                                               Source: FHWA’s Website
                                                 Objective 2 (cont’d.): FTA’s Communications with Recipients and
Attachment. Senate Budget Committee Briefing


                                                                            Stakeholders
                                                                                        27

                                               ● Since MTA has not faced a shortfall, FTA has not developed procedures to
                                                 communicate with states, TAs and other stakeholders regarding MTA’s status and
                                                 possible shortfalls.
                                               ● FTA does not post MTA’s year-to-date and historical balance data on its Website.
                                                 Rather, FTA relies on FHWA to post the MTA balance information on the FHWA
                                                 Website along with the HA postings (see Figure 10 on slide 26).




                                                                                                                                    Page 27 of 33
                                                                                                                                    Attachment
                                                       Objective 2 (cont’d.): Recipients’ Perspectives on DOT’s
Attachment. Senate Budget Committee Briefing


                                                                           Communications
                                                                                          28

                                               ● States and TAs we surveyed informed us that without timely, accurate information
                                                 on the status of the HA and MTA, they could be forced to suspend or cancel capital
                                                 improvement projects and possibly scale back public transportation services.
                                               ● States and TAs that have access to alternate funding sources−by issuing bonds or
                                                 accessing lines of credit, etc.−would need more than the 8-week notice currently
                                                 proposed by FHWA to avoid any disruptions to their highway and transit programs.
                                               ● Additionally, states and TAs requested that they be allowed to plan for a shortfall in
                                                 the accounts rather than having to react to them. However, this is only possible if
                                                 they are able to anticipate shortfalls well in advance of their onset.
                                               ● Providing additional data on cash management procedures and minimum balances
                                                 on OAs’ Websites could help recipients better evaluate HTF accounts’ financial
                                                 position and the likelihood and timing of future shortfalls.




                                                                                                                                          Page 28 of 33
                                                                                                                                          Attachment
                                                               Objective 3: AATF Best Practices
Attachment. Senate Budget Committee Briefing




                                                                                          29

                                               ● FAA is funded primarily by the AATF which receives revenues from a series of
                                                 excise taxes paid by users of the national airspace system and receives an annual
                                                 General Fund contribution, a fail safe mechanism that is not available to HTF.
                                                      Figure 11. AATF’s General Fund Contribution to AATF (FY 2001 through FY 2010)




                                                                Source: FAA




                                                                                                                                      Page 29 of 33
                                                                                                                                      Attachment
                                               ● AATF provides a majority of FAA’s funding and funds capital improvements to the
                                                 U.S. airport and airways system.
                                               Objective 3 (cont’d.): Short-Term Outlook for AATF’s Solvency
Attachment. Senate Budget Committee Briefing




                                                                                                                  30

                                               ● Like HTF, AATF’s solvency has come under a lot of scrutiny in recent years as its
                                                                                      2
                                                   uncommitted balance declined from $7.1 billion at the end of FY 2001 to $360
                                                   million at the end of FY 2009 and $770 million at the end of FY 2010.
                                               ● AATF’s solvency concerns resulted in an increase in General Fund match to 30%
                                                   and 33% respectively during FY 2009 and 2010 (see Figure 11 on slide 29) as
                                                   compared to an average match of 18% for the previous 8 fiscal years.
                                               ● As noted above, AATF’s solvency is measured in the context of its uncommitted
                                                   balance. In contrast, HTF’s solvency is measured in the context of whether it has the
                                                   cash needed to pay obligations due within the next year or two.
                                               ● In the short-run AATF had a cash balance of $9.4 billion at the end of FY 2010 and
                                                   is not expected to confront a cash shortfall for the foreseeable future.




                                                                                                                                                                                         Page 30 of 33
                                                                                                                                                                                         Attachment
                                               2
                                                   The AATF’s uncommitted balance is a measure of cash required to pay all of the AATF’s obligations, including those that FAA will be
                                                   required to pay in the future but have not yet come due.
                                                 Objective 3 (cont’d.): Key Takeaways from FAA’s Management of
Attachment. Senate Budget Committee Briefing


                                                                               AATF
                                                                                                31

                                               ● Because, AATF is not confronting a cash shortfall for the foreseeable future, it has
                                                 not developed procedures to manage issues related to a cash shortfall.
                                               ● However, FAA employs some practices for projecting AATF’s outlays which, if
                                                 adopted by HTF's managers, could improve the accuracy of HTF outlay estimates.
                                                 ●   Unlike FTA, FAA uses multiple rate tables to project AATF’s outlays. These rate tables are
                                                     aligned with different expense categories. Using multiple rate tables could increase the
                                                     precision with which FTA is able to project MTA outlays.
                                                 ●   FAA also closely tracks outlay trends on a project level basis for its Airport Improvement
                                                     Program (one of the five different programs administered through AATF).
                                                 ●   This project level tracking approach would benefit both FHWA and FTA because it would
                                                     allow them to identify deviations in outlay trends and adjust shortfall projections
                                                     accordingly.




                                                                                                                                                  Page 31 of 33
                                                                                                                                                  Attachment
                                                                      Proposed Corrective Actions
Attachment. Senate Budget Committee Briefing




                                                                                                32

                                                We recommend that FHWA:
                                                    Provide in its weekly report to Congress a range of time, rather than a specific date, when a
                                                     shortfall is projected to occur to better reflect possible variances in a shortfall’s timing.
                                                    Conduct a periodic assessment of the outlays associated with a representative sample of
                                                     projects to identify deviations in outlay trends and adjust shortfall projections accordingly.
                                                    Publicize on its Website its cash management procedures and the events that trigger its use
                                                     of these procedures to allow stakeholders to better evaluate HA’s financial position.

                                                We recommend that FTA:
                                                    Provide in its weekly report to Congress a range of time, rather than a specific date, when a
                                                     shortfall is projected to occur to better reflect possible variances in a shortfall’s timing.
                                                    Conduct a periodic assessment of the outlays associated with a representative sample of
                                                     projects to identify deviations in outlay trends and adjust shortfall projections accordingly.
                                                    Develop procedures to manage MTA’s cash balance to exercise more control over MTA’s cash
                                                     flows when a shortfall appears imminent and publicize on its Website MTA’s cash balance




                                                                                                                                                      Page 32 of 33
                                                                                                                                                      Attachment
                                                     and management procedures and the events that trigger its use of these procedures to
                                                     provide more transparency regarding MTA’s status.
                                                             Major Contributors to the Briefing
Attachment. Senate Budget Committee Briefing




                                                                                         33
                                               ● Mitchell Behm, Assistant Inspector General for Rail, Maritime and Economic
                                                 Analysis
                                               ● Yana Hudson, Program Director

                                               ● Jay Borwankar, Project Manager

                                               ● James Lonergan, Sr. Financial Analyst

                                               ● Kevin Sanders, Sr. Financial Analyst

                                               ● Michael Broadus, Program Analyst

                                               ● Susan Neill, Writer/Editor

                                               ● Tom Denomme, Project Consultant




                                                                                                                              Page 33 of 33
                                                                                                                              Attachment
